<html>
<title> - RIGHTING THE ENDURING WRONGS OF THE HOLOCAUST: INSURANCE ACCOUNTABILITY AND RAIL JUSTICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  RIGHTING THE ENDURING WRONGS OF THE
                  HOLOCAUST: INSURANCE ACCOUNTABILITY
                            AND RAIL JUSTICE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2011

                               __________

                           Serial No. 112-86

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
71-263                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John Garamendi, a Representative in Congress from 
  the State of California........................................     6
The Honorable Carolyn Maloney, a Representative in Congress from 
  the State of New York..........................................    12
Mr. Leo Bretholz, Holocaust Survivor, Author, ``Leap into 
  Darkness''.....................................................    21
Ms. Renee Firestone, Holocaust Survivor..........................    30
Mr. David Schaecter, Holocaust Survivor, President, Holocaust 
  Survivors Foundation...........................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John Garamendi: Prepared statement.................     8
The Honorable Carolyn Maloney: Prepared statement................    14
Mr. Leo Bretholz: Prepared statement.............................    24
Ms. Renee Firestone: Prepared statement..........................    32
Mr. David Schaecter: Prepared statement..........................    43

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
Material submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida, and chairman, Committee on Foreign 
    Affairs......................................................    67
  The Honorable Howard L. Berman, a Representative in Congress 
    from the State of California.................................    70
  The Honorable Ann Marie Buerkle, a Representative in Congress 
    from the State of New York...................................    81
  The Honorable Carolyn Maloney..................................    90
  Mr. Leo Bretholz...............................................    96
  Ms. Renee Firestone and Mr. David Schaecter....................   102
  Ms. Renee Firestone............................................   111


RIGHTING THE ENDURING WRONGS OF THE HOLOCAUST: INSURANCE ACCOUNTABILITY 
                            AND RAIL JUSTICE

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. I 
will recognize myself, and the ranking member, my good friend, 
Mr. Berman, for 7 minutes each for our opening statements. We 
will then hear from our members for 1-minute opening 
statements. Following opening statements, we will hear from our 
distinguished witnesses and I would ask that you summarize your 
prepared statements to 5 minutes each before we move to the 
question and answers with members under the 5-minute rule. 
Without objection, the witnesses' prepared statements will be 
made a part of the record. And members may have 5 days to 
insert statements and questions for the record subject to 
length limitation in the rules.
    The Chair now recognizes herself for 7 minutes. Good 
morning and thank you for joining us for this morning's 
hearing: ``Righting the Enduring Wrongs of the Holocaust: 
Insurance Accountability and Rail Justice.'' I want to 
recognize Mr. Herbert Karliner who was scheduled to testify at 
our hearing this morning but he was injured while attending 
last week's Kristallnacht ceremony. Mr. Karliner's testimony 
will be submitted for the record without objection and we wish 
him a speedy recovery.
    It pains me to say that survivors of one of the greatest 
atrocities of the 20th century continue to feel the pain of the 
Nazis' brutality and oppression. These lingering injustices 
stem from those who sought to profit from the abuse of innocent 
victims and took advantage of circumstances to enrich 
themselves while others suffered.
    This morning, we will be discussing two situations linked 
by a common theme, the rights of Holocaust survivors as 
American citizens to bring legal action in Federal court. The 
first is the issue of unpaid Holocaust-era insurance policies. 
In pre-war Europe hundreds of thousands of individuals who 
would eventually be victims of Nazis' crimes sought to protect 
their families' futures by purchasing insurance policies. 
However, when the Nazis raided their homes and deported them to 
ghettos and concentration camps, documentation of their 
insurance policies was lost. Those who survived the war 
approached the insurance companies expecting the companies' 
records to validate their claims and allow them access to the 
funds they were owed. Instead, they were turned away for 
lacking proper documentation and barred from accessing the 
companies' records. The insurance companies refused to honor 
policies without documentation that they alone possessed and 
refused to disclose to claimants.
    In other cases, survivors made claims on insurance policies 
belonging to relatives murdered by the Nazis, only to be told 
that their claim could not be honored without a death 
certificate. Can you imagine anything more outrageous than 
asking for a death certificate for someone murdered in 
Auschwitz? In 1998, the International Commission on Holocaust 
Era Insurance Claims (ICHEIC) was established to resolve these 
issues. However, ICHEIC suffered numerous flaws, including 
problems with accountability and oversight, stemming from the 
fact that the process was greatly controlled by the insurance 
companies. Eighty-four percent, 70,000 of the 90,000 claims 
made, were rejected. Eighty-four percent, 70,000 of the 90,000 
claims made, were rejected. Thirty-four thousand were offered a 
token humanitarian award, cold comfort in the face of a broader 
dismissal by ICHEIC.
    Worst of all, survivors were told this was the only forum 
in which they could make claims. So ICHEIC sought to limit the 
rights and access of Holocaust victims even though several 
States had passed laws enabling survivors to pursue legal 
action against these insurance companies since they had been 
summarily dismissed by ICHEIC. These survivors deserve the 
opportunity to have their day in court and present evidence 
against these companies who have failed to honor their business 
obligations.
    Holocaust survivors came here looking for the freedom, 
tolerance, and opportunity that they were denied in their 
homelands. We cannot deny these individuals the justice they 
more than deserve after they have suffered through so much and 
waited for so long. We cannot allow these companies to continue 
to profit from the horrors of the Holocaust.
    The other issue we will be addressing this morning is 
justice for those who were transported to concentration camps 
by the French rail company, SNCF. SNCF operated trains for 
profit that transported over 75,000 victims, primarily Jews, 
but also American POWs, to Nazi concentration camps. These 
trains were run as commercial transactions. SNCF was paid per 
passenger, per kilometer by the Nazis to move them to their 
deaths.
    The conditions in the trains were horrible, passengers were 
forced to stand with virtually no food or water or sanitary 
facilities. And SNCF knew exactly how bad these conditions were 
because their employees cleaned the cars after they reached 
their destinations removing the corpses of innocent victims who 
died during the journey. SNCF has not denied its wartime 
activities, its officials claimed that they were forced to do 
the things they did. That sounds familiar. And yet SNCF has not 
contributed to post-war reparations to victims of the brutality 
of the Nazis.
    And when Holocaust survivors in the United States brought a 
class action suit against this company, SNCF, the rail company, 
hid again. This time behind the Foreign Sovereign Immunity 
Clause claiming that SNCF is an instrument of the French 
Government and should not be held liable. Notably, SNCF has 
used the opposite defense in French court, claiming to be 
performing private functions rather than government work. They 
can't have it both ways.
    I now turn to the ranking member, my good friend, Mr. 
Berman, for his opening statement.
    Mr. Berman. Well, thank you very much, Madam Chairman. My 
dear friend, Si Frumkin, the late Si Frumkin, an Auschwitz 
survivor and one of the most prominent national leaders in the 
Soviet Jewry movement once said that when it comes to the needs 
of survivors, those in power should do everything they can to 
assist. In spirit of Si's words, I believe these bills have 
merit as a means to draw strong attention to the plight of 
survivors. Time is of the essence for these Holocaust victims.
    For that reason, last year I worked hard to negotiate an 
assistance fund for the neediest of survivors, including 
meeting directly with the head of the German Insurance 
Association. I did this based on my view that home care 
assistance to survivors is paramount among all other issues 
raised at Prague, a view that I know is shared by Ambassador 
Eizenstat and the others involved in this issue.
    I work to get these companies to contribute voluntarily, 
but I was told that the insurance companies would not 
participate unless other German industries joined the effort 
and that other German companies view this as a problem for the 
insurance industry and not for them. Those efforts have not 
borne fruit, and as such, leave us with fewer options to 
address a dire situation.
    I thus welcome any means to secure more money for the 
neediest members of this community. Madam Chair, both the 
proponents of this bill and the organizations opposed have one 
interest at heart, assistance for desperate and needy 
survivors. For too long, elderly survivors have been denied 
their basic needs and the problem is getting worse. A 2003 
report by the United Jewish Communities indicated up to one-
fourth of survivors live below the poverty line. That number 
recently climbed to as high as to 50 percent in the Los Angeles 
County according to the L.A. Federation. Seventy-five percent 
of survivors are female and most live alone. I am aware of the 
story of individuals like Bernhard Eckert, an 85-year-old 
survivor who was below the poverty line until through the good 
work of Bet Tzedek Legal Services last year, he has secured a 
pension and reparations from Germany. Survivors like Mr. Eckert 
should not fear where their next meal is coming from.
    The proponents of the insurance bill believe that allowing 
policy claimants to sue insurance companies who ultimately 
secure additional assistance, not just for the claimants, but 
for the survivors generally. The detractors have made clear 
their concerns that the bill could harm future assistance from 
Germany, append legal agreements with European allies and give 
false hope to plaintiffs. Again notwithstanding these concerns 
for me, my friend Si's views went out, do what we can for 
survivors.
    I also think H.R. 890 highlights fundamental separation of 
power issues. The Supreme Court decision giving rise to this 
legislation, colloquially known as Garamendi, stems from the 
strong efforts of our esteemed witness and colleague Mr. 
Garamendi to advance this clause. That decision reflects a 
traditional trend with which I take issue. That in the absence 
of an affirmative congressional action, courts today have given 
excessively broad deference to the President's claim settlement 
authority.
    As a member of this body for nearly 30 years, who has 
fought for Congress' prerogative on issues ranging from war 
powers to imposition of sanctions on Iran, I am acutely 
sensitive to the weight given to courts by executive agreements 
which are no treaties and should not be viewed at such. At a 
very minimum, courts should be required to balance all the 
relevant equities, including the needs of survivors, the 
interest of the executive, and the feasibility of alternative 
claims for it, not simply back away and the assertion by the 
executive branch of its interest.
    I am well aware of the challenges to this bill including 
opposition from some mainstream Jewish groups, and our European 
partners. But unless provided evidence this bill would hurt 
more than help, these legitimate concerns are outweighed by the 
very real and immediate need to help survivors. It is precisely 
because of the issues that the Garamendi case raises that it 
would be helpful had there been a third panel for this hearing, 
one in which the lawyers for the plaintiffs and groups opposed 
to this legislation, along with the administration, could have 
aired their views.
    These are not simple issues, especially given the two bills 
under consideration are quite different and a full airing of 
the perspectives in this legislation would be helpful. I also 
regret that I will need to leave shortly for a hearing in 
Judiciary. While I will try to return, I may miss Leo 
Bretholz's testimony.
    Mr. Bretholz, I received your gripping book on jumping from 
a deportation train and view you along with the other survivors 
here as a profile in courage. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman, for that 
opening statement. I am pleased to yield time for an opening 
statement to Mr. Deutch, my colleague from Florida,
    Mr. Deutch. Madam Chairman, first let me extend my deepest 
thanks to you for holding today's hearing. For the Holocaust 
survivors in south Florida and throughout this country, time is 
of the essence. The survivor community one of the most 
vulnerable and the needs of survivor are one of our most 
vulnerable and the needs of survivors are unique. A study by 
United Jewish Communities found that a quarter of survivors 
were living below the poverty level. Frankly, it is 
unconscionable that so many survivors are being denied the 
opportunity to live out their lives with the dignity they 
deserve.
    Every spring I attend Yom HaShoah Remembrances across south 
Florida. Six years ago when I was first elected, the synagogues 
were filled with survivors, not an empty seat. But every year 
since I have watched as the crowd has gotten smaller and 
smaller. These bills are not about protecting foreign 
governments or giving peace to insurers. They are about 
fulfilling our promise to survivors by providing even a modicum 
of security and peace so they may live out their lives in 
dignity. This is not a choice between going to court or 
pursuing opportunities for future reparations. Opportunities 
which had they been in place today would be providing needed 
care for the 75 percent of survivors who are in their 80s and 
90s. These bills are about justice and giving survivors the 
opportunity to pursue it.
    Madam Chair, I would like to recognize the survivors who 
are sharing their stories today. I would like to recognize 
Donald Shearer who, as a U.S. pilot, was shot down over France, 
held as a POW and subsequently transported on a SNCF train to 
Buchenwald, ultimately survived the death march.
    Finally, I would like to recognize the tireless work of the 
survivors in south Florida, like Jack Rubin and Alex Moscovic, 
both of whom testified before this body. I admire their 
courage, and I stand with them and I stand with the entire 
survivor community in your continued quest for peace, for 
security, and for justice.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Deutch for 
that opening statement. If the Chair will recognize herself I 
have been asked by the State Department and interested groups 
to submit their views on the bill into the record, and I ask 
unanimous consent to do so. Thank you, without objection.
    Ms. Wilson of Florida.
    Ms. Wilson of Florida. Thank you, Madam Chair. I came to 
attend this hearing this morning, first of all, because Carolyn 
Maloney is my housemate and I wanted to hear her testimony. And 
I represent Miami Dade county Florida, a lot of Holocaust 
survivors and a lot of Jewish constituents. So I am very 
interested to find out what the pressing needs are in terms of 
survivor care today, what are we doing, and how are they 
managing to claim their policies? And what are we doing to make 
good on the promises and the justice for these survivors. So 
thank you, Madam Chair, for holding this hearing.
    Chairman Ros-Lehtinen. Thank you so much, Ms. Wilson. Mr. 
Cicilline who got a great award last night from the Close Up 
Foundation.
    Mr. Cicilline. Thank you, Madam Chair. I want to thank you 
first for convening this hearing and thank Ranking Member 
Berman as well. It is a real honor to be in the presence of 
such courageous, extraordinary people, and I look forward to 
the testimony, and particularly Holocaust survivors, and Mr. 
Garamendi and Ms. Maloney. And look forward to working very 
hard on this committee and in this Congress to right the 
terrible injustices that continue to be visited upon survivors 
of this hideous period in our history, thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Cicilline. 
Mr. Sires is recognized.
    Mr. Sires. Thank you, Madam Chair for holding this meeting. 
Obviously I am not Mr. Berman, he had to step away, but I am a 
proud cosponsor and I am here to listen and to work with you. 
It is amazing to me that all this time that has transpired and 
no resolution has come to this issue. I have been married to my 
wife, Adrienne Sires, for 25 years. I know the issue well, and 
I look forward to the people's comments on this issue.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Sires. And 
now the Chair is pleased to welcome our two distinguished 
panelists. I am pleased to introduce Congressman John Garamendi 
of California. He has been a member of the U.S. House of 
Representatives since 2009 and brings nearly 4 decades of 
public service to the House Armed Services and Natural 
Resources Committees. He previously served 2 terms as 
California's State Insurance Commissioner so he knows a lot 
about this issue.
    And next the committee would like to welcome Ms. Wilson's 
housemate, Congresswoman Carolyn Maloney of New York, who has 
been a member of the U.S. House of Representatives since 1992. 
She is a senior member of the both the House Financial Services 
Committee and House Oversight and Government Reform Committee. 
Welcome to you both, thank you. We will begin with Mr. 
Garamendi.

STATEMENT OF THE HONORABLE JOHN GARAMENDI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. Madam Chair and members, thank you very much 
for the opportunity to be here. I will submit written testimony 
and summarize that testimony.
    I come before this committee today in support of H.R. 890, 
the Holocaust Insurance Accountability Act of 2011 with a long 
experience of having served as an insurance commissioner and 
dealing with this issue. For decades Holocaust survivors and 
their heirs have sought to locate insurance policies their 
families may have purchased during the days preceding and 
during World War II from European insurance companies.
    H.R. 890 will allow those individuals to bring civil action 
in Federal district court against the insurer or related 
companies of the insurers to recover proceeds or enforce any 
rights under those policies. This bill would also allow States 
like California to require insurance companies to disclose 
information on policies that they sold during that period of 
time.
    In the aftermath of the war as survivors sought to rebuild 
their lives, they were again victimized, not by hostile 
military forces, but by the very insurance companies that they 
and their families relied upon for financial security. In the 
concentration camps they lost their human right to physical 
security and now insurance companies continue to rob them of 
their financial security needed to help them rebuild their 
lives and to continue in a good state of health.
    In a cruel twist of fate, survivors of the Holocaust, their 
insurance claims are rejected because they lacked the necessary 
paperwork. As we all know, the Nazis did not issue death 
certificates. Documents that insurance companies knew or should 
have known were either confiscated by the Nazis, lost or hidden 
in some file somewhere in Europe.
    The International Commission on Holocaust and Era Insurance 
Claims, ICHEIC established in 1998, decades after the end of 
World War II, tried to remedy some of the injustice perpetrated 
by the insurance companies by examining claims put forward by 
the survivors. Unfortunately, ICHEIC did not require the 
insurance industry in Europe to divulge their records so that 
survivors and their families could go through those records to 
determine if there was a policy. Keep in mind that the records 
were lost, or in many cases, not known by the survivors. That 
was a major flaw.
    To remedy that flaw, California passed legislation to 
require insurance companies doing business in California to 
submit all the records so that individuals, families and 
survivors could go through those records to determine if there 
may be a policy that existed. Unfortunately, the U.S. Supreme 
Court disagreed with the California law, and in a 5-4 decision, 
the American Insurance Association, et al., versus John 
Garamendi, insurance commissioner, State of California required 
in that decision that the California law was unconstitutional, 
and that it interfered with the executive branch to conduct 
foreign policy.
    There is strong exception to that by me and by many others 
that the court erred. The legislation put forth by the 
chairwoman would right that wrong, and allow the State of 
California to proceed to require insurance companies doing 
business in California to disclose all their records so that 
survivors and their families and heirs could go through those 
records to determine if there was a policy.
    In addition, H.R. 890 allows civil action so that 
individuals could bring suit. All of these are extraordinarily 
important remedies for a horrible misjustice that was carried 
out during the Holocaust. It is time for the European insurance 
companies to step up, to honor their claims. They have held 
that money for decades. That money may very well not belong to 
them, it may belong to survivors and children and relatives of 
the survivors.
    I really want to thank the chairwoman for bringing this 
bill back for a second, maybe even a third time and never give 
up, never give up. This is an issue of simple justice, and it 
is also an issue of contract. The insurance companies entered 
into a contract. They must honor that contract by divulging 
information, and I would hope this bill becomes law. Thank you 
for the opportunity to appear and I would be happy to answer 
any questions you may have.
    Chairman Ros-Lehtinen. Thank you so much Mr. Garamendi, we 
appreciate your opening statement.
    [The prepared statement of Mr. Garamendi follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. And Ms. Maloney is now recognized 
for her statement.

STATEMENT OF THE HONORABLE CAROLYN MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. Thank you very much, Madam Chairwoman, and 
Ranking Member Berman, and members of the committee, including 
my housemate and good friend. It is an honor for me to be here 
today to discuss H.R. 1193 and the Holocaust Rail Justice Act.
    We have worked tirelessly for SNCF victims to move this 
legislation forward. I am pleased to report that we now have 
broad bipartisan support with over 40 cosponsors. And with 
today's important hearing as the first step, I am optimistic 
that this legislation will continue to move through the House, 
and that Congress will provide victims with their long awaited 
and much-deserved day in court.
    I first introduced this legislation in 2003 after meeting 
with survivors, including one who is with us today, Leo 
Bretholz. Their stories were haunting. I could not ignore the 
injustice they have endured in an effort to educate and pay 
tribute to never forgot.
    I have also introduced legislation, H.R. 1753, the Simon 
Wiesenthal Education Assistance Act, which provides grants to 
organizations to teach about the horrors of the Holocaust so 
that they are never repeated.
    During World War II, more than 76,000 Jews and other 
undesirables were transported from France to Nazi death camps 
aboard trains operated by the SNCF. Among those transported to 
death camps on these trains were American airmen, one of whom 
is with us today, shot down over France. SNCF operated the 
trains as a commercial venture and were paid per head to 
deliver thousands to their death.
    In the 66 years since the end of World War II, SNCF has 
never made restitution or reparations to any of the victims. 
Hundreds of known survivors and family members of those who 
have perished live in the United States today, although the 
number is dwindling. Yet SNCF has never been accountable for 
its actions during World War II. And this court action has been 
in place over 10 years.
    SNCF has unfortunately succeeded in cloaking itself in the 
veil of so-called foreign sovereign immunity and thus evading 
jurisdiction in the United States courts. SNCF has avoided all 
accountability, and now the Holocaust Rail Justice Act is the 
only remaining opportunity for the survivors to pursue justice. 
This legislation would simply permit private individuals to 
have their day finally in U.S. court against a company ranked 
number 209 on this year's Fortune 500 list.
    This bill would preclude in this one limited instance the 
defense of foreign sovereign immunity from being raised. As the 
facts make clear, this is not the type of situation foreign 
sovereign immunity was ever intended to cover.
    I would like to recognize two of the survivors who we are 
honored to have with us today and ask them to stand.
    Leo Bretholz, whose chilling testimony we will hear 
shortly, leapt from one of the trains bound for Auschwitz when 
he was only 21 years old, managed by the grace of God to 
survive. Thank you, Leo, for your courage and pursuing with 
this legislation. We look forward to your story.
    I would like also to recognize another SNCF victim sitting 
behind me, Donald Shearer, and ask him and Leo to stand. And he 
is a former technical sergeant in the U.S. Air Force was shot 
down over France on July 5th, 1944 after being turned over to 
the Gestapo. He and 167 other allied airmen were transported 
not to a POW camp, but to Buchenwald on SNCF trains.
    Mr. Shearer, especially we sit here and honor you because 
of Veteran's Day and we want to thank you for your service to 
our country and your continued heroism, both during World War 
II and today. I would ask that the committee enter into the 
record Mr. Shearer's oral history interview provided to the 
U.S. Air Force on June 29th.
    Chairman Ros-Lehtinen. Without objection, subject to 
limitations in the rules.
    Mrs. Maloney. SNCF claims that it was wholly coerced into 
participating in the Holocaust, and that it should not bear the 
responsibility for deporting tens of thousands of innocents, 
including over 11,000 children toward their deaths. But these 
are negated by historical facts. As we all know, and as SNCF 
should know, the ``following orders'' defense was dispensed 
with at Nuremberg. Independent studies and tribunals have 
determined that SNCF actively collaborated with the Nazis.
    A report commissioned by SNCF itself found that in its 
first meeting with the Nazis, it was agreed SNCF would retain 
control and responsibility for the trains, including the 
technical conditions of the deportations. SNCF alone decided to 
utilize----
    Chairman Ros-Lehtinen. Ms. Maloney, if you could wrap up 
your statement. I am sorry.
    Mrs. Maloney. It is a brutal statement of how they 
transported thousands, would not even let the Red Cross help 
with water and any type of help. And this is really their last 
chance. SNCF has never paid a cent to any of the victims and 
this legislation is necessary because there is absolutely no 
other recourse for these survivors and no other way for them to 
pursue justice. These survivors have simply fallen through the 
cracks, this is their last hope.
    Madam Chair, ranking members, all members of the committee, 
we thank you for this hearing. We thank you for your support 
and we hope that you will be part of the team moving this 
through the Congress of the United States so that these victims 
can finally have their day in court. I thank you, I submit my--
--
    Chairman Ros-Lehtinen. Without objection. Thank you so 
much, Congresswoman Maloney. Thank you very much Representative 
Garamendi for a powerful statement that will be made a part of 
the record and we thank you for being here with us.
    [The prepared statement of Mrs. Maloney follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. And now it's a true honor to present 
our second panel. Some of them had been discussed in previous 
statements in their opening remarks. We have Leo Bretholz, who 
was raised in Vienna, Austria where he lived until the Germans 
annexed Austria in 1938. He then fled to Luxembourg, and spent 
the next 7 years running from the Nazis. Mr. Bretholz escaped 
from the Nazis and Nazi sympathizers seven times. In 1947, Mr. 
Bretholz arrived in the United States and settled in Baltimore, 
where he married and raised a family. Mr. Bretholz has worked 
as a salesman for a textile firm and has opened a number of 
bookstores. He frequently gives lectures about the Holocaust 
and has written a book chronicling his experiences. We welcome 
you here to our committee. Thank you, Leo.
    Our next witness will be Renee Firestone, she was born in 
Czechoslovakia and spent 13 months in prison in Auschwitz 
Birkenau. Following liberation in 1945, she completed her 
education in the arts an immigrated to Los Angeles with her 
husband and infant daughter where she made a career as a 
designer.
    Ms. Firestone is the founding lecturer for the Simon 
Wiesenthal Center's educational outreach program, and has 
conducted workshops for the United States military and NASA, as 
well California teachers and law enforcement. She has been the 
subject of numerous documentaries, including The Last Days, 
which received the 1994 Academy Award for best feature length 
documentary.
    Our last witness is my dear friend, David Schaecter, who 
was born in Slovakia and was the only member of his family to 
survive the Holocaust. He arrived in the United States in 1950, 
and has lived in south Florida since 1956. Mr. Schaecter is one 
of the founders of the Holocaust Memorial in Miami. He is a 
docent at the Memorial and frequently speaks to grade school, 
high school and University students in that capacity. He is 
president of the Holocaust Survivors Foundation, USA. I cannot 
tell you how honored we are to have all three of you making 
your presentations today. Without objection, your statements 
will be made part of the record, the full statements, and I 
kindly ask that you summarize your remarks to 5 minutes, and 
without objection, the witnesses' written statements will be 
inserted into the record.
    Mr. Bretholz, we will begin with you, sir.

  STATEMENT OF MR. LEO BRETHOLZ, HOLOCAUST SURVIVOR, AUTHOR, 
                     ``LEAP INTO DARKNESS''

    Mr. Bretholz. Chairwoman Ros-Lehtinen, Ranking Member 
Berman, and members of the committee, my name is Leo Bretholz 
and I am a Holocaust survivor. After World War II, I immigrated 
to the United States and settled in Baltimore. I am 90 years of 
age and speak regularly about my experiences during the 
Holocaust.
    Thank you for the opportunity to testify about the 
atrocities that I experienced at the hands of the French rail 
company, SNCF. I would also like to thank Congresswoman 
Maloney, Senator Schumer, the congressional delegation from my 
home State of Maryland, and many legislators who have made 
certain that SNCF's victims are not forgotten.
    I am also deeply honored to be here with Donald Shearer. 
Mr. Shearer was U.S. Prisoner of war deported by SNCF to 
Buchenwald. He experienced the same horrors I did and more. 
Because of his courage and that of his fellow service members, 
many of whom did not return, I am here today.
    November 6th marked the 69th anniversary of the night I 
jumped from an SNCF train bound for Auschwitz carrying 1,000 
innocent victims, yet I still remember that haunting night as 
if it were yesterday. In October 1942, at the age of 21, I 
ended up near Paris in the internment camp of Drancy, the 
antechamber of Auschwitz. The train to Auschwitz was owned and 
operated by SNCF. They were paid by the Nazis per head and per 
kilometer to transport innocent victims across France and 
ultimately to the death camps. They collaborated willingly with 
the Nazis. Here I have a copy of an invoice which I would like 
to submit for the record.
    Chairman Ros-Lehtinen. Without objection, we will do our 
best to try to submit it for the record subject to the length 
limitation in the rules.
    Mr. Bretholz. This is the copy. I would like to submit it 
now, sent by SNCF seeking to be paid for the services they 
provided. SNCF pursued payment on this bill after the 
liberation of Paris, after the Nazis were gone. This was not 
coercion, this was business. SNCF deported 76,000 Jews on those 
trains, including over 11,000 children. They would count us 
off, 50 into each cattle car. In the car in front of me, a 
family was counted off and the 51st person was a young son. The 
boy began to scream and the father pleaded to allow them to 
stay together, but with cold precision, the boy was shoved into 
one car, his family into another. I believe that was the last 
time they saw each other.
    For the entire journey, SNCF provided what was one piece of 
triangle cheese, one stale piece of bread and water. There was 
hardly room to stand or sit or squat in the cattle car. There 
was one bucket for us to relieve ourselves. Within that cattle 
car, people were sitting, and standing, and praying, and 
weeping, fighting, the whole gamut of human emotions.
    My friend Manfred and I began to try to escape. Many in the 
cattle car, fearing the guards would punish everyone if we were 
found out, urged us not to even try. I also was beginning to 
doubt our plan when an elderly woman on crutches spoke out. She 
wielded that crutch like a weapon, pointed it at me and said, 
you must do it. If you get out, she said, maybe you can tell 
the story. Who else will tell the story? I can still see her 
face and hear her voice today.
    Manfred and I set out to pry apart of the bars on the 
windows. First we tried belts, they slipped off. Then someone 
suggested we dip our sweaters into the human waste on the 
bottom of the car. We keep twisting the wet sweaters tighter 
and tighter like a tourniquet. The human waste dripped down our 
arms. We kept going for hours until finally there was just 
enough room for us to squeeze through.
    It was night. I went first, and Manfred helped me climb out 
a tiny window and stand on the small ledge on the outside of 
the car, he followed me and we held on tight so as not to slip 
and fall beneath the train and waited for it to take a curve 
and slow down. Then we jumped to our freedom. Of the 1,000 
people with me on the SNCF convoy number 42, only five survived 
the war.
    If I had not jumped from that train, I wouldn't be here 
today. It is my duty to speak for those who did not survive, 
such as the old woman who emboldened us to escape, and for my 
family that did not survive. SNCF willingly collaborated with 
the Nazis, had the company resisted even to a small degree, or 
had they not imposed those horrific conditions, many lives 
would have been saved.
    And in the almost 70 years since the end of the war, SNCF 
has paid no reparations nor been held accountable. The company 
didn't even apologize until last year when it was criticized 
for pursuing high speed rail in the United States without fully 
accounting for its role in the Holocaust. As it was during the 
Holocaust for SNCF, so it is now, it is all about money. The 
Holocaust Rail Justice Act is the last opportunity we will have 
to seek justice within our lifetimes. The survivors seek to 
have only our day in court for the first time. Seventy years is 
far too long to wait for a company to accept responsibility for 
the death and suffering it caused. I urge you, please, pass the 
Holocaust Rail Justice Act this Congress before it is too late.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Bretholz, 
thank you for that powerful testimony.
    [The prepared statement of Mr. Bretholz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Mrs. Firestone is now recognized for 
5 minutes.

      STATEMENT OF MS. RENEE FIRESTONE, HOLOCAUST SURVIVOR

    Ms. Firestone. Dear Madam Chairwoman and members of the 
committee, thank you for inviting me to present an additional 
voice in support of H.R. 890. I came before you as an 
individual, but I speak for all survivors whose voice will 
never be heard.
    My name is Renee Firestone, I am a Holocaust survivor and a 
member of the Holocaust Survivors Foundation USA. I would like 
to bring to the attention of the committee a serious issue 
still plaguing the survivors. For years, we have been trying in 
vain to collect on insurance policies written to our families 
prior to World War II, which remain to date largely unpaid. 
When we tried to make our claims to the insurance companies 
they had the audacity to tell us we need birth information or 
they would ask for death certificates of the people to whom the 
policies were issued. Were they really insane?
    It was bad enough that the Nazis stripped us of our 
families, of our rights, of our possessions, our dignity, down 
to the last hair on our heads. There was no one in the gas 
chambers where they murdered my mother, or at the mass graves 
handing out death certificates proving their crimes.
    If this was not bad enough, we survivors, now American 
citizens, are being deprived by our own Government of our 
constitutional right to seek redress from court and claim what 
is rightfully ours. You can never know, Madam Chairman, just 
how painful and re-traumatized that is to the survivors. 
Although ordered to do so by the court, insurance companies, 
such as Allianz SE and Assicurazioni Generali who are the sole 
depositories of the proof of these policies, never released the 
full list of the insured.
    In my case, I was told that my father's name was not found. 
However, my first cousin, Fred Jackson Jakobovitz, was the 
first survivor who sued and collected from Generali, because he 
was lucky enough to find some papers in his house on his return 
from the death camp.
    Fred's mother was my aunt, my father's sister. We lived in 
the same town as them, where my father built our beautiful 
villa, which is still there, and had a textile and tailoring 
business in a very fashionable facade in the main center of our 
town. My father had a very close relationship with his sister. 
There is no way that my aunt has insurance and my father did 
not. My father was the advisor to the whole family. Why would 
he advise others to get the insurance and not get the same for 
himself and for his family?
    All we are asking for is to have our rights restored 
through H.R. 890, to seek aid of our court system, to enforce 
our claims under these insurance policies. We are not beggars. 
Our families paid for these policies with the sweat of their 
brows, and now we only want what is rightfully ours.
    The second shameful, embarrassing and painful issue is that 
of the Conference on Jewish Material Claims Against Germany 
Incorporated, better known as the Claims Conference, which is 
comprised of 23 Jewish institutions, only two of which are 
Holocaust survivor-related. The Claims Conference stands in 
firm opposition to the will of the survivors and the passage of 
H.R. 890.
    How obscene and repugnant that our own people would deny 
the right of the survivors. Where were these same organizations 
and individuals when our parents, our brothers, sisters and 
friends were being murdered? Did they come to our rescue? And 
who gave them the right in the first place to negotiate with 
Germany in our behalf? Did anybody ask permission, or even ask 
if we want to let them do this?
    Germany give them billions and they give us a pittance, by 
holding the rest for supposed future claims, while really they 
are waiting for us to die so that they can distribute the 
remainder of funds among themselves, who no one will be left to 
account to.
    The truth is that when the last survivor is gone and money 
is remaining, it belongs to our children. It is their heritage. 
Again, I am here today to ask this honorable committee to 
support House Resolution 890 and ensure its swift 
implementation while the survivors are still alive. Madam 
Chairwoman, time is of the essence. I order to serve justice 
and to preserve with dignity of the remaining survivors in 
their final hours. I thank you again for allowing me to speak.
    I would just like to make another remark. I see that Mr. 
Berman is not here anymore, but he has been trying--we have 
been trying to get him to tell us his position on this bill. 
From his remarks today, it sounds like he supports H.R. 890, 
which I guess he changed his mind because I recently asked him 
in a letter, which he never acknowledged or replied.
    Chairman Ros-Lehtinen. Thank you so much for your 
testimony, Ms. Firestone. Thank you.
    [The prepared statement of Ms. Firestone follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Mr. Schaecter is recognized at this 
time for 5 minutes.

     STATEMENT OF MR. DAVID SCHAECTER, HOLOCAUST SURVIVOR, 
           PRESIDENT, HOLOCAUST SURVIVORS FOUNDATION

    Mr. Schaecter. Thank you, thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Put the microphone a little bit 
closer to you.
    Mr. Schaecter. I also would like to thank the committee, 
the members of the committee. My name is David Schaecter, and I 
am the President of the Holocaust Survivors Foundation USA. It 
is a national coalition of survivor leaders and survivor 
groups. Thank you for providing Holocaust survivors the 
opportunity to address this Congress. It is an unbelievably 
great, great honor, Madam Chair.
    Today I am addressing you not only on behalf of the 
Foundation, but for Herbert Karliner, my dear friend and fellow 
survivor who was scheduled to testify here before you, he had a 
harsh fall and suffered several injuries a few days ago. We 
believe he will be okay, but at the age of 85, he would not 
take any chances to undergo the travel and pressure of speaking 
before the Congress. So it falls on me, his close friend and as 
president of the Foundation to read to you his spoken testimony 
to this committee. I will conclude with a couple of personal 
remarks.
    This is Herbert Karliner's story. Herbert Karliner now 
lives in Miami Beach, Florida, but he remembers Kristallnacht 
as if it were yesterday. He was a small child at the time, when 
he woke up in the morning to the news that his father's and 
other Jewish-owned businesses were burned to the ground. Within 
hours, the Gestapo arrived at his house and took his father, 
Joseph Karliner to Buchenwald. Though his father returned, his 
family was fated to sail on the SS St. Louis that was turned 
away from the shores of Miami Beach in 1939.
    After the St. Louis returned to Europe, Herbie's father, 
mother, and two sisters were doomed to death at the hands of 
the Nazis. Only Herbert and his brother Walter survived.
    Before Joseph Karliner died, he had told his sons about the 
life insurance policy. He bought those policies from Allianz. 
In case something happened you need to know. When Herbert and 
Walter approached Allianz after World War II, the company said 
his policies had been paid out to an unknown person. When Herb 
Karliner applied to ICHEIC in 2000, Allianz said the policy had 
been paid to the beneficiary, meaning Herbert's father. This 
closed the case under the ICHEIC rules.
    Years later, Mr. Karliner managed to obtain the very 
``repurchase'' document. The date on that document was November 
9, 1938, Kristallnacht. If either Allianz or ICHEIC had given 
him the document as they were required to do under the ICHEIC 
rules, Herb would have informed them that his father surely did 
not stop at the Allianz office on his way to Buchenwald to cash 
in his insurance policies that day.
    Herbert moved to the United States in 1949. He served in 
the United States Army in Korea. How ironic, the country that 
rejected his whole family in 1939 at such a great cost asked 
him to serve in 1951, and he was honored to do so. Yet as his 
statement for the record makes clear, we cannot comprehend how 
the American courts and the President, Congress have decided 
that Herb Karliner and all of us survivors, unlike all other 
Americans, cannot sue Allianz in court to recover what we--what 
they owe for his father's policy. We are second-class citizens 
under the American legal system. How can you, Members of 
Congress, stand by and accept this historical and moral 
injustice?
    Madam Chair, the next couple of comments are mine. I would 
like to add a few words of my own to Herbert's powerful story. 
For over 45 years I have been active in the Jewish community 
from the federations to AIPAC, to other groups you can imagine. 
I have lead 36 missions to Israel and to the death camps of 
Europe. I was one of seven local leaders who came together to 
privately fund and build the magnificent Holocaust Memorial on 
Miami beach.
    Madam Chair, you have been there so many times with us, 
which is visited by tens of thousands of school children and 
adult tourists alike. I would like the chair to know that in 
2010, over 760,000 people walked through the Memorial. But the 
icing on the cake for me is the fact that over 300,000 were 
children. And to be very, very blunt, the children are my hope. 
The children are the hope of the survivors, those of us who are 
still around. We are so privileged to reach them, to speak with 
them, to make them aware about the Holocaust. Children are like 
sponges, you show him you, you speak to them, you make them 
aware and they remember and they are my hope and every 
survivor's hope that the memory of the Holocaust is not swept 
under a rug.
    Just one last statement, ma'am, you know, we talk about 6 
million people perished in the Holocaust, and we say it so 
quickly and its--say it in passing. I would like for this 
committee and you wonderful Congresslady of mine, I would like 
you to understand and reflect when you have a moment that over 
the 6 million people that were slaughtered, 1.5 million were 
children, from the age of infancy to the age of 12. And I very 
often reflect and I keep reflecting as to what would have 
happened had these 1.5 million children if given a chance to 
live.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Schaecter. And I further reflect about the fact what 
this 1.5 million children could have accomplished in their 
lifetime, what they could have contributed to humanity, to the 
sciences, to music had they been given a chance to live.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Schaecter. And I would like to leave you with that 
thought.
    [The prepared statement of Mr. Schaecter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, Mr. Schaecter.
    Thank you Mr. Schaecter, Ms. Firestone, Mr. Bretholz for 
evocative powerful testimony. Thank you so very much.
    Ms. Firestone. Madam Chairman, can we just ask you----
    Chairman Ros-Lehtinen. Mrs. Firestone, what is that?
    Mr. Schaecter. We both would like to ask for the exhibit to 
be included in the hearing.
    Chairman Ros-Lehtinen. What was that now?
    Ms. Firestone. To be included in the hearing record.
    Mr. Schaecter. The exhibit.
    Mr. Schaecter. The exhibit.
    Chairman Ros-Lehtinen. Oh, I see.
    Without objection, subject to the length limitations in the 
rules, because there are limits.
    Mr. Schaecter. I understand.
    Chairman Ros-Lehtinen. Thank you so much.
    I would like to begin the question and answer period.
    Mr. Schaecter, you founded and you are the president of the 
Holocaust Survivors Foundation USA----
    Mr. Schaecter. Yes.
    Chairman Ros-Lehtinen [continuing]. And you have stood 
firmly behind the position that non-survivors, non-survivors 
institutions cannot make decisions on survivors' rights. Mrs. 
Firestone in her testimony gave some figures that out of the 
many organizations that were participating in the ICHEIC 
process only two of them, I believe she said, were survivor 
agencies.
    Can you describe to us, Mr. Schaecter and Mrs. Firestone, 
the involvement or lack thereof of a survivors group in the 
ICHEIC process? Were survivor groups invited to participate? 
Were they consulted? Did survivors or others voice concerns and 
critiques during the ICHEIC process and were those concerns and 
critiques listened to? How were those concerns received and 
responded to by those involved in the ICHEIC process?
    Mr. Schaecter, we will begin with you.
    Mr. Schaecter. Can I just give you a simple and 
straightforward answer?
    Chairman Ros-Lehtinen. I don't know if Congress can handle 
that, but go ahead.
    Mr. Schaecter. This is part of this horrible injustice that 
is being perpetrated on an ongoing basis. We survivors are 
basically scarred. We have deep scars.
    Chairman Ros-Lehtinen. But can you tell me about the ICHEIC 
process? Were you--the survivor groups, were they listened to?
    Mr. Schaecter. They don't listen. They don't really feel 
that they have to listen. Because, frankly, there are so many 
institutions that want to be involved in management, in 
managing the lives of the funds, managing the lives of the 
survivors, the funds that they receive, the method of 
distribution of these funds from ICHEIC to the Claims 
Conference to all the other Jewish established agencies.
    They have never asked me what I felt and how I felt about 
survivors that cannot manage from day to day, Madam Chair. They 
have never asked me, although I have screamed it in a very loud 
and continuous manner that we have people that cannot make it 
from hour to hour. Yet no one is asking for my input.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. Schaecter.
    Mrs. Firestone, on this issue about survivors--non-survivor 
institutions being involved in the survivors' rights issue, if 
you could address that; and also about the right of appearing 
before a court and having your day in court even without 
knowing what the outcome would be.
    Ms. Firestone. That is right.
    Chairman Ros-Lehtinen. Can you explain the importance of 
the process of bringing these cases before a Federal judge even 
though you don't know the outcome?
    Ms. Firestone. Madam Chairman, the problem is, first of 
all, that all the decisions are being made back east. We in 
California are the stepchildren, even though we are the largest 
survivor community in the United States.
    For example, myself, I found out about ICHEIC through the 
lawsuit that my nephew claimed against the company. But there 
are many survivors who still don't know anything about ICHEIC. 
They don't even know that it exists and that they can or could 
have gone to court.
    Well, that is what we are asking for. We are asking for the 
right to personally claim what is rightfully ours and have the 
right to go to court for it.
    Chairman Ros-Lehtinen. Thank you very much.
    And, Mr. Schaecter, if you could address that issue about 
the opportunity to bring a case before the Federal judge. And 
you have been an active proponent of this. Even though the 
verdicts of the cases are not prejudged, that does not mean 
that you are going to win. Could you address that issue?
    Mr. Schaecter. I think it is the only democratic way. I 
think it is the only fair way. And, for a change, we would like 
to see the fairness. And we expect that we are not going to be 
shortchanged, we expect to go to court, we expect to plead our 
case, and we hope that this Congress here will make it possible 
for us to do this in the future.
    Chairman Ros-Lehtinen. Thank you so much. Thank you, Mr. 
Schaecter. Thank you, Mrs. Firestone.
    I did not mean to leave Mr. Bretholz out. It is just that 
we have limited time.
    So I am going now to ask Mr. Sires, who is taking the spot 
of the ranking member, to be acknowledged for his 5 minutes of 
questioning.
    Mr. Sires, thank you so much.
    Mr. Sires. Thank you, Madam Chairperson; and I commend you 
for having this hearing.
    And I commend you for coming before the hearing. Your 
determination is admirable, and it really is a testament of 
your fortitude, what you have accomplished after what you have 
gone through, and I admire you for it. I really do.
    My question has to do with H.R. 890. There are a lot of 
critics to this bill, and they always use the word ``damage,'' 
that somehow this bill is going to damage relationships between 
America and European countries. I mean, they use that--to me it 
is a lot of bull--excuse the word. But, you know, in all the 
critics they say that it will damage restitution and 
compensation that is still owed you. Can you elaborate on that 
a little bit? What are they talking about?
    Ms. Firestone. What they owe us?
    Mr. Sires. Yeah. They say that this bill, if it passes, it 
is going to damage the relationship between us and European 
countries and that there are other restitutions. What are they 
talking about?
    Chairman Ros-Lehtinen. If you could move a little bit 
closer to the microphone, Mrs. Firestone.
    Ms. Firestone. There are no other restitutions. I don't 
know what they are talking about. It is ridiculous. They are 
trying to get out of it, you know, dragging the time so that we 
are no longer here and then they don't have to account to 
anybody. That is what they are waiting for. And it is very 
obvious. Because Germany was willing to do their part in the 
restitution. Germany gave billions to the Claims Conference, 
and we got nothing. And we know, of course, today that some of 
that money disappeared. We know that, also.
    Mr. Sires. I can't figure it out. We know you are looking 
for this information, and this bill doesn't say that there is 
more money involved. All you want to do is be able to access 
the information.
    Ms. Firestone. That is right. We want the list from the 
insurance companies. All we want is a list of the names of who 
were insured. Now, is that so difficult? I am sure they have 
the list.
    Mr. Sires. I agree with you. I was just wondering.
    Leo seems to be the feistiest one. Do you have any comments 
about what I just said? I admire you. At 94, you are still 
fighting.
    Ms. Firestone. I thank you.
    Mr. Sires. All of you.
    Mr. Schaecter. She is a feisty lady. I assure you.
    Mr. Sires. Leo, do you have any comments? Do you want to 
add to what Mrs. Firestone has said?
    Mr. Bretholz. This is a different issue.
    Chairman Ros-Lehtinen. A little bit closer to the 
microphone. I know that your issue is the rail justice.
    Mr. Bretholz. Mine is the rail issue. This is a different 
issue. In fact, I don't understand much of it.
    Mr. Sires. Okay. No problem.
    Mr. Bretholz. I know it is all about money.
    Mr. Sires. Yeah. It makes the world go round.
    Ms. Firestone. It really isn't.
    Mr. Bretholz. But it is. And justice. Justice, yes.
    Mr. Schaecter. May I just--one short example here.
    ICHEIC became very much involved, and it was decided that 
this is the agency we should look to, this is the agency we 
should listen to, and they are going to go ahead and take care 
of all our problems.
    Well, you have heard part of the report. But the most 
amazing and most insulting and most degrading of all things 
that ICHEIC has done, out of $20 billion worth of insurance 
policies they paid approximately $32 million worth of claims.
    And I further submit to you that they went ahead when there 
was some dismay shown by the world--I am hopeful the world--but 
by the survivor people, they finally decided to go ahead and 
give to 30,000 people--to 30,000 people--$1,000 what they 
considered humanitarian--just because you guys are nice, we are 
going to give you $1,000. And that is so degrading, and I think 
that you beautiful people ought to know that.
    Ms. Firestone. May I just make a comment about when my 
nephew claimed--he had the papers. He found the papers at home, 
the insurance papers. And when he approached the insurance 
company they offered him--the insurance was originally--I don't 
know--40,000 Czech crowns, whatever that is. The way he figured 
it out, they owed him over $1 million. When he approached them 
with the papers, they offered him $10,000. And of course he 
wrote back he is not taking it, and that is when he sued. And 
finally they gave him over $100,000. But still he figured out 
that they owed him about $1 million.
    Mr. Sires. Thank you very much.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Sires. 
Excellent questions.
    Mr. Chabot, the chairman of the Subcommittee on Middle East 
and South Asia, is recognized for 5 minutes.
    Mr. Chabot. Thank you very much, Madam Chairman, and thank 
you for holding this very important hearing here this morning.
    Although I was not here for all the testimony, I heard some 
of it and read the rest; and I have to say that this is some of 
the most inspiring testimony that I have heard in my time in 
Congress, some of the most disturbing, too, when you consider 
what we are talking about here and the loss of so many lives 
during probably the most horrific time in world history, the 
number of people who were affected by the Holocaust. And we are 
looking now at co-sponsoring this, and I am sure as a result of 
the three of you coming here a lot of us will seriously 
consider this legislation.
    I just have one question before I head off to another 
committee.
    Your written testimony underscores the need to hold the 
insurance companies accountable for their actions. Do you see a 
distinction between restitution efforts and holding these 
companies accountable for their Holocaust-era activities? Can 
you just explain what the distinction might be? How will 
bringing these cases before a Federal Court provide a different 
type of justice than contributions made to restitution?
    And I will open that up to any of the folks here.
    Mr. Schaecter. Well, an insurance policy, as far as from 
what I know about insurance policies, it is a contract. It is a 
contractual instrument. The insurance policies written 
especially by Generali and Allianz, they highlight the fact 
that you can go anyplace in the world and claim on that policy, 
but it is not happening.
    The fact that Allianz, the chairman of Allianz became the 
exchequer of the Reich and the fact that he went ahead and used 
the funds to actually pay for part of World War II expenses, if 
you will. The fact that the people that worked for Allianz had 
records, had access, had the privilege to every Jew alive, to 
every Jew that existed in central and Eastern Europe, they took 
this information and gave it to the Gestapo so that the Gestapo 
could go ahead and implement the looting of assets. The 
insurance company needs to meet and fulfill its contract on 
these policies, if nothing else.
    The fact that they were collaborators--there were many, 
many other companies, many other institutions in Germany that 
were collaborators of World War II and maybe even collaborated 
in the final solution of the Jewish people. So my beef is 
really from the standpoint of decency, from the standpoint of 
morality, from the standpoint of international understanding 
that these policies could be cashed anyplace on Earth.
    Mr. Chabot. Thank you very much. I appreciate your 
response.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Chabot, since you are done, I was wondering if you 
could yield me that remaining minute.
    Mr. Chabot. Yes, I yield.
    Chairman Ros-Lehtinen. Thank you, Mr. Chabot.
    To Mrs. Firestone or Mr. Schaecter, ICHEIC issued, as you 
had pointed out, 34,000 humanitarian awards of $1,000 each. And 
you said in your written testimony that survivors found these 
offers insulting, and you had just spoken about that, Mr. 
Schaecter. Can you explain for the record why survivors felt as 
they did regarding these awards?
    Mr. Schaecter. I can tell you, Madam Chair, that when you 
are desperate, those who are really, really desperate, that 35 
to 40 to 50 percent of survivors still alive today they are 
very, very desperate, they took the $1,000.
    Chairman Ros-Lehtinen. And it also helped ICHEIC to--you 
look at the records, and they will say, here, look at the big 
numbers of cases that were resolved.
    Mr. Schaecter. You are right. They displayed their 
magnanimity to the world that they care and that they have done 
their job.
    On a personal level, Congresslady, you know me for a long, 
long time. You represented me in the House in the State of 
Florida. I was blessed to have met you. I was blessed that I 
didn't need the $1,000 from ICHEIC. But I would also admit to 
you that I was 11 years old when I was taken away. I don't know 
how much an 11-year-old guy is supposed to know about 
insurance. And I didn't want to go ahead and eat my guts out 
and search, so I decided to be an advocate. I decided to be the 
mouthpiece for the survivors.
    Chairman Ros-Lehtinen. And we thank you for that. Thank 
you, Mr. Schaecter.
    I thank the gentleman from yielding me the time.
    Mr. Deutch from Florida is recognized.
    Mr. Deutch. Thank you. Thank you, Madam Chair.
    First, I want to thank you for coming. I want to commend 
you not just for the work that you do here, but, Mr. Bretholz, 
you spoke beautifully about your experience and the amount of 
time you spend with kids and helping them understand the 
horrors of the Holocaust.
    And, Mr. Schaecter, I am not privileged to represent you, 
but I am right up the road, and your work in south Florida is 
legendary. It is an honor to have you here, and thank you for 
all that you do in the community.
    Mrs. Firestone, you have managed to become a movie star by 
being such a staunch advocate for survivors and telling the 
story.
    And I had a whole series of questions, but I wanted to just 
ask you, you have all spoken about kids in one way or another. 
We spend a lot of time, those of us who are blessed to have 
kids, giving them the opportunity to hear from you, giving them 
the opportunity--as I tell my kids often, they are going to 
be--my kids will be the last generation who will hear this 
story firsthand. I would like you, if you would, spend a minute 
to talk about the message that this Congress can send to the 
kids that all of you speak so passionately about and spend so 
much time sharing your stories with.
    Ms. Firestone. Well, of course, I feel, first of all, that 
non-Jewish kids should really learn about the Holocaust and 
about all these issues. Like I personally think that this 
$1,000 ICHEIC project was an insult. I mean, how--these kids 
should know that, after we suffered what we suffered through 
the Holocaust, here we are again second-class citizens. We are 
deprived of our rights as a citizen in the United States.
    And we want these children to know that when they grow up 
they have to correct all these wrongdoings. And this is why we 
are teaching them to respect humanity and to help humanity. 
There are atrocities going on all over the world which most 
people don't acknowledge or don't even know about. And we think 
that the Holocaust was the only thing that we should talk 
about. We should talk about all these horrible atrocities that 
are going on in the world today, and our children must learn 
from them. And that is why I have been teaching now for 34 
years about the Holocaust.
    Mr. Deutch. Mr. Bretholz.
    Mr. Bretholz. Well, it is a simple thing with children. I 
speak a lot to schools, and I get very good reactions from 
young people.
    The whole thing when we speak about the Holocaust was based 
on unbridled hatred, hatred not for what we had done but who we 
were. And the children are being left with that message. When a 
hater ever approaches you, he or she involves you, wants to 
involve you in hate talk about religion or race, nationality, 
it behooves you to immediately tell that person they cannot 
count on you. I am not on the same page with you because you 
cannot engage me in a method to hate people.
    And that is the only message that we have to leave with 
young people. It was hatred, and hatred breeds hatred. And when 
you--it has to go from family to family, from block to block, 
from home to home, from town to town. And when I tell the 
children you can make a difference and you can make a 
difference and you can make--all of you can make a difference. 
When I tell the students, each of you can make a little 
difference, but, collectively, it makes a big difference.
    Mr. Deutch. And, Mr. Schaecter, what kind of difference can 
the United States Congress make right now with respect to these 
issues?
    Mr. Schaecter. Congressman Deutch, you know, south Florida 
usually takes the initiative. I am talking about many things. 
But from the standpoint of our communities and the issue of the 
Holocaust and the issue of survivors, I was one of five other 
survivors, plus the child of a survivor, plus a real 
personality in our community in Miami, and we collectively 
built a memorial.
    And when the memorial was finished after 5 years, we 
realized we kind of forgot what the real purpose, what our real 
purpose is. And that is to reach children, because they are the 
important element of everything and anything, and we started a 
program called the March of the Living.
    And this committee needs to understand what happens if you 
start from scratch. We spent 2 months trying to label it, give 
it a name. And, finally, we came up with a name, with a word 
called March of the Living.
    Because no one ever--when people got into Birkenau from 
Auschwitz, Birkenau was the killing factory. No one ever came 
out alive from Birkenau. And we wanted to impress the children 
that they are going to come with us, that survivors will 
accompany them and that the survivors will embrace them. We 
know these young children, we know their tenderness, we know 
that the survivors will embrace them and hug them and hold 
their hands and walk with them hand in hand even to the gas 
chambers. We wanted them to understand what had happened.
    And they quickly--and it is not easy. When they cry, I cry. 
When they cry, Mrs. Firestone cries. We do it. This gentleman I 
am sure has gone through the same experiences.
    So I will tell you this. We tell all of them, each and 
every one, and they accept the responsibility that we charge 
them with. We want them to be ambassadors. We want them to tell 
the world. Because there are so many Holocaust deniers, and 
these kids will set these deniers straight and make believers 
out of them because they are the witnesses.
    So that is our part, and we will keep doing it. I know 
this, that this young lady here, she has been teaching and 
nurturing children for over 35 years. I think it is closer to 
45 years. But she is only--she is still a youngster. And I am 
hopeful that I am probably amongst the youngest of the 
survivors. I just turned the ripe old age of 82. And if the guy 
upstairs really likes me I hope to continue for another 8, 10 
years.
    Chairman Ros-Lehtinen. Well, we hope so.
    Thank you so much, Mr. Deutch, and thank you for your 
leadership role. As the witnesses in the audience may know, Mr. 
Deutch is the lead Democrat sponsor of our bill for justice. 
Thank you so much, Mr. Deutch.
    Mr. Bilirakis, another wonderful Florida colleague.
    Mr. Bilirakis. Thank you. Thank you very much, Madam Chair. 
I appreciate it. And I want to thank the panel for sharing 
their stories. Please continue to do so. You are making a 
difference. And of course I want to thank the wonderful 
chairperson for holding this hearing.
    Holocaust survivors must be made whole, and we should 
disassociate ourselves from those who seek to profit from the 
unprecedented tragedy. I co-signed a letter along with several 
of my Florida colleagues recently alerting the Florida 
commissioner of education to the hypocrisy of SNCF, which 
refused to make whole victims of Nazi death camps, including 
American POWs, while seemingly wanting to educate Florida's 
children of the Holocaust by underwriting a 3-year partnership 
between Florida's Task Force on Holocaust Education and the 
Shoah Memorial in Paris. I am concerned that SNCF America will 
profit from high-speed rail contracts in the U.S. What are your 
thoughts on that? Can you please share them with us?
    Maybe we can start with Mr. Bretholz.
    Mr. Bretholz. On the SNCF issue, well, the SNCF 
participated all throughout the period. They participated in 
the discussions about the technical conditions of the 
deportation trains, so they were involved.
    Now comes the point where we need our day in court, and the 
court will decide. We need our day in court to show the SNCF 
has done something wrong. And it is self-interest on their 
part. You see, they apologized, yes, but the apology came only 
after they were interested in that high-speed rail contract 
here. Which means, in addition to the money that they made by 
sending Jews to the death camp paid per head and per kilometer, 
of its interest in sending more people and more people means 
more money, they now are bidding for a rail contract here, 
which means again more money.
    But this has to be handled in the court. We want that 
justice to be done officially, openly, and with interest in 
doing the right thing. That finally justice be done. They did 
an awful thing. That night on the train on the 6th of November, 
it is something that is like a nightmare. And that is the only 
thing I would like, a day in court to see justice to be done.
    Mr. Bilirakis. Thank you, sir.
    Anyone else wish to comment on that?
    Ms. Firestone. Yes. I just want to say that SNCF is not the 
only railroad that should be responsible, because we are now 
beginning hear about the Hungarian railroad also trying to 
maybe--maybe they are worried because they hear what is going 
on in France, so they are coming forward, and they are trying 
to also make some compensation. We have been transported the 
same way as they were.
    Mr. Bretholz. But the Hungarians do not have the know-how 
and the technical know-how like the French. The French are 
good, they are the best in fast railroads, and the Hungarians 
will have a very little chance against the French.
    Ms. Firestone. They are not against the French.
    Mr. Bretholz. I understand.
    Ms. Firestone. They are claiming from the world, you know, 
experience. It is the railroads all over Europe were the same. 
I mean, they transported these people. In my carrier car, for 
example, there were 120 of us, 120 of us, the children crying, 
begging the parents to take them home. The parent had no idea 
if they were going to go home. So you cannot say that the 
French railroads were different.
    Mr. Bretholz. But you forget that we are here not to talk 
about the Hungarian, but we are here to talk about SNCF.
    Ms. Firestone. I know. But I am just saying that we have to 
really look at the whole European situation, what happened at 
the time.
    Mr. Bretholz. But the Hungarians did not ask to build 
railroads here. This is the issue that we have. You have SNCF. 
You can mention any railroads in Europe that shipped Jews to--
--
    Ms. Firestone. That is right, and they should.
    Mr. Bretholz. But we are dealing with SNCF, isn't that 
right? This is the bill on hand. Otherwise, you are going to be 
sidetracked.
    Mr. Schaecter. I would like to comment about--and maybe 
that will give you a partial answer to what I think you are 
looking for.
    I spoke to probably the largest group of high school 
seniors in the area. At Coral Gables High, they had 3,000 kids 
graduating; and I was asked to speak to them. The children ask 
very, very profound questions; and they want answers.
    And then one little young lady, I think she wasn't even 17, 
maybe 16, 16\1/2\, and she stopped me while I was speaking. And 
she says, do you believe, do you believe in God? And I said, 
yes, I do. And then when I finished speaking she says, well, 
how could you? How could you? How could someone like you even 
now say so, without hesitation, say, yes, you believe?
    And I looked at her and, honest to God, I was stunned for a 
couple of seconds. Because she in reality wanted me to find a 
whole host of people to blame. And the thing that stunned me 
the most was the fact, how could I? And then I had to give her 
an answer. She insisted I give her an answer.
    And I said, you know, 6 million people were destroyed. It 
is on an ongoing basis. There are Holocausts in so many other 
places in the world, and it is ongoing.
    But let me tell you about the Holocaust. We really should 
not ask, where was God; how could he have permitted that? and 
not pause for a second. Because I wanted to say the right thing 
that would be acceptable to her. And I said, ``Instead of 
asking, where was God? I think that we ought to ask, where were 
the people? Where was the world while all that was happening 
and where is the world while all this is happening today and 
yesterday and tomorrow?''
    Chairman Ros-Lehtinen. Thank you. Thank you very much. And 
I thank Mr. Bilirakis.
    Mr. Bilirakis. Thank you.
    Chairman Ros-Lehtinen. Did you want to say something?
    Mr. Bilirakis. No, I am fine. Thank you so much.
    Chairman Ros-Lehtinen. Thank you very much. Excellent 
questions.
    Mr. Connolly, thank you so much for being here; and you are 
recognized for your questions.
    Mr. Connolly. Thank you, Madam Chairman; and thank you for 
your leadership on this issue.
    I don't really have a question. I just want to say my 
profound appreciation for the three witnesses who joined us 
here today and provided their testimony.
    You know, the Holocaust has been something seared in my 
memory since I was a child. I will never forget the first time 
I was exposed to the reality of the Holocaust. I was a young 
child watching television in the 1950s; and there was some 
program, probably a documentary, and the image that came on 
television of the opening up of the camps and the number of 
bodies and the bulldozing of bodies into trenches. And I 
couldn't have been 7 or 8. And I was stunned at this image as a 
child, stunned that human beings could do such things to other 
human beings. And for the rest of my life I have searched for 
the answers, Mr. Schaecter, that young girl asked you. Because 
the reality of it is so hard to encompass that maybe you are 
tempted to want to deny it.
    I can remember my first trip to Europe. I went to Munich, 
and I insisted, over the objection of my traveling companions, 
that I go to Dachau. I wanted to touch the ovens to make sure 
this was real; this wasn't some fantasy; it was real. And this 
was near a modern European city today.
    And I don't know that any of us here in Congress, even with 
legislation, can really ever help come to closure on something 
that ought not to ever come to closure.
    And, you know, I listened, Mr. Bretholz, to what you said. 
It wasn't for something we did. It was for who we are, who we 
were. When a political system demonizes any class of human 
beings for any reason, this is the risk. You objectify humans, 
and they become things.
    And I wish the answer were as simple as it was just a 
unique defect in one particular ethnic European strain. But how 
often do we need to be reminded that it is universal, sadly, 
that when political systems allow unbridled assaults on a 
group, a subgroup within its population, Holocausts follow?
    And so I am so honored to have three Holocaust victims and 
survivors here honoring the halls of Congress. Thank you for 
your testimony, thank you for the witness you give, and thank 
you for reminding us always that this must never leave our 
consciousness even as the generation fades away.
    With that, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    If the gentleman would yield me his remaining time.
    Mr. Connolly. I would be honored to.
    Chairman Ros-Lehtinen. Thank you.
    Because I just want to give thanks to Mr. Schaecter for 
providing us with Mr. Karliner's testimony. As you pointed out, 
he fell on the anniversary commemoration of Kristallnacht, the 
Night of Broken Glass. And how ironic it is, as you pointed out 
in his statement, that the insurance company that held the 
policy for Herbie's family said that they actually paid it out 
on the Night of the Broken Glass.
    This is the night, Kristallnacht, when Jewish synagogues, 
businesses, homes were attacked by Nazi Germany, by Nazis in 
Germany and in Austria, and that was the night that Herbie's 
father was deported to Buchenwald. And it is incredible for 
this insurance company to state that on this horrific night, as 
he is being deported to a concentration camp, Herbie's father 
passed by the insurance company and they cashed out his policy.
    What do you say to that, Mr. Schaecter?
    Mr. Schaecter. Madam Chair, you know, there is so many, so 
many things that we have heard and that are done and said 
that--not just borderline, on absolute ugliness--to assume that 
Herbert's--Herb Karliner's father on the way to the train that 
was going to take him to Buchenwald went ahead into the Allianz 
office to cash his policy. That was the answer ICHEIC's people 
gave Herbert Karliner when he went ahead with the policy--with 
a copy of the policy.
    Chairman Ros-Lehtinen. That was in the ICHEIC system that 
was supposed to work so well.
    Mr. Schaecter. That is correct.
    Chairman Ros-Lehtinen. Thank you so much. I thank the 
gentleman for yielding me the time.
    Mr. Connolly. Madam Chairman.
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Connolly. I just want to be fair to one of our 
witnesses. I think Mr. Bretholz, when you asked me to yield, 
was seeking recognition. I wonder if we could accommodate him. 
I think he wanted to have a comment.
    Chairman Ros-Lehtinen. Without objection. Yes, Mr. 
Bretholz, did you want to say something, and I interrupted you?
    Mr. Bretholz. Yes. Just a couple of personal quotes.
    There was a book written by a Jesuit priest, Father Edward 
H. Flannery, the title, ``The Anguish of the Jews.'' And in 
this book Father Flannery says, ``To say that the Holocaust is 
the most horrifying event in the annals of Jewish history is an 
understatement. It is the most horrifying event in the totality 
of recorded history, not just Jewish history.''
    And the other important quote is by none other than Elie 
Wiesel, Professor Wiesel, answering your question about God. 
Elie Wiesel is an Orthodox Jew, but when he is being asked 
about his faith there comes an answer--and, believe me, this is 
not to be disregarded when it comes from Elie Wiesel. When he 
is being asked about his faith, ``Yes, I have faith, but my 
faith is wounded.'' Is that a good statement? His faith is 
wounded, and he explains it, when he witnessed his father's 
death in the camp. That is when he decided that his faith is 
wounded, and that is what you are dealing with.
    And of course we have not much broached the subject of the 
SNCF here, and I hope that the Congress will do the right thing 
to give us a fair hearing in court. And that the SNCF, which is 
also very self-serving, you know, they have not come up with an 
excuse until they ask for a contract. But they never came up 
with a contrite statement that was satisfactory. So perhaps I 
hope the Congress will work on that SNCF thing, because I don't 
want them to get any contracts.
    Chairman Ros-Lehtinen. Thank you so much.
    Thank you, Mr. Connolly, for giving Mr. Bretholz that 
opportunity.
    Mr. Rivera of south Florida is recognized for his 
statement.
    Mr. Rivera. Thank you, Madam Chair.
    And I certainly want to associate myself with 
Representative Connolly's remarks earlier regarding the manner 
in which you have honored us with your presence here today and 
honored Congress for the important lessons of history that must 
remain present, ever present in our minds to make sure that 
these types of horrific actions never replicate themselves 
again.
    Mr. Bretholz, you alluded specifically to a question that I 
wanted to ask. Because in your testimony and in Representative 
Maloney's testimony both referenced the allegation that the 
SNCF maintain control over operations of their railroads and 
sought to maximize their efficiency in deporting their victims. 
Can you elaborate just for the committee somewhat on the 
evidence you have seen supporting this claim?
    Mr. Bretholz. Well, sure.
    The transports and the whole organizing the transports, 
these convoys were formed, directed, and implemented by the 
French. They did the utmost to do it with deception, with 
cruelty, and with precision.
    You see the perception--the deception was when we were in 
the camp of Drancy, which was called the antechamber of 
Auschwitz, they took away belongings from us. Well, I didn't 
lose much, just a wristwatch and a stamp collection. But there 
were some very important valuables, jewelry from the ladies, 
fur coats. We received a voucher, and on that voucher every 
item that they took from us was mentioned in that voucher. It 
was an itemized voucher.
    And do you know what the deception was? An admonishment to 
us, don't lose this voucher. Because when you get there, 
wherever you are going to get--and we never knew where it was--
when you get there and you don't have that voucher, you won't 
get your belongings back.
    So this gave us a--it should have given--they wanted us to 
have a sense of safety. It will be all right. We will get it 
back. That was the deception.
    And the cruelty was separating families.
    And the precision was with which they pushed us into this 
railroad car. You know, they could have just asked us to step 
into the car instead of using rifle butts to push us into it.
    The SNCF was very instrumental in doing it the way they did 
it, yes.
    If that is satisfactory to you, you can ask another 
question----
    Mr. Rivera. No.
    Earlier, Mrs. Firestone, you were nodding when Chairwoman 
Ros-Lehtinen asked the question of Mr. Schaecter earlier 
regarding the incident on Kristallnacht in the documents. Did 
you want to add something to that as well?
    Ms. Firestone. Well, you know, the fact that everybody 
wants documents is an outrage. Because when we were packed into 
the cattle cars we already were limited to nothing. Everything 
was already taken away from us.
    And then when they say that he paid--they paid--that he 
claimed his insurance, I mean, it is so outrageously awfully 
unbelievable. Because, by that time, by the time we were at the 
railroad station, we had absolutely nothing. Everything was 
taken away from us.
    So they were giving us something? We were already stripped 
of everything. We were told how big the suitcase can be we can 
take with us and how much it can weigh. The suitcase was maybe 
this size.
    So they stripped us of everything, take our homes, take our 
belongings, take everything away from us, and they were giving 
him money at the railroad station? I mean, it is so 
outrageously unbelievable that they even can claim something 
like this.
    Mr. Rivera. Yes, sir, you want to add something.
    Mr. Schaecter. Yes. I would like to--again, I guess I 
survived for a reason, and I am humble enough to say that I 
survived, and I need to go ahead and make sure that the world 
is aware and the world doesn't forget it. But the reality is 
that no other people, no other country has ever done what the 
Reich did.
    The very first thing they did to us after they rounded us 
up and took us and quickly made the decision as to who was to 
live and who was to die, even those that they suggested that 
they are going to let you live, the very first thing they did 
to you is dehumanize you. They took away your name, and they 
went ahead and tattooed a number on your left arm.
    And I was no longer David. I was number 4172. And I guess I 
knew my place very quickly. And if I hadn't stood on the feet 
of my older brother to make me look a little bigger or taller, 
I would never have survived. I was standing on his two feet, 
and I looked a little bigger. And they were just--he pointed me 
the other way.
    And when history is written, and it has been written so 
many times, that dehumanizing element is one of the cruelest 
and most painful. And I guess--I guess our destiny is to keep 
on doing what we are doing and at the same time have the energy 
and perseverance to come and see you all and plead with you. 
And we know, we know that you have heart, we know that you are 
human beings and that you are good human beings. And in my book 
all of you are a gift from God to us.
    Mr. Rivera. Well, thank you for maintaining that energy and 
perseverance.
    I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Rivera.
    I am pleased to yield to Mr. Sherman of California, the 
ranking member on the Subcommittee on Terrorism, 
Nonproliferation, and Trade, who is a co-sponsor of the 
Holocaust legislation that we are talking about today.
    Thank you, Mr. Sherman.
    Mr. Sherman. Thank you, Madam Chairman, for having these 
hearings to explore once again the horror of the Holocaust and 
to give us the honor and the education of being with Holocaust 
survivors.
    As we explore what the Holocaust means about the nature of 
humankind, we should realize that, as others have stated, while 
this was the most horrific act it is not an act that was 
unprecedented, nor is it an act that was never repeated, and 
America's own history is marred by great crimes.
    I want to focus a bit on perhaps another way to go about 
this issue as to insurance companies. Because the issue is, 
under what condition can European insurance companies do 
business in the United States? It would seem to me that they 
would publish on the Web a list of the insureds that are over 
100 years old whose policies they have not paid. They might 
exclude those where they have had contact with the insured in 
the last 5 years. There may indeed be a 100-year-old man 
somewhere in Europe with a policy.
    We shouldn't just focus on the Jewish victims of the World 
War II era but all those whose families were destroyed and 
whose insurance was never known about and never paid. Likewise, 
the Roma people; likewise, those from the Armenian genocide.
    If we simply had a requirement that those who sold policies 
during or before the World War I era in the areas affected by 
World War I and likewise those who sold policies before World 
War II and just said put on the Web the name and the hometown 
of every insured who is over 100 years old, and we may find 
that there are German and French families who simply didn't 
know there was a policy.
    I would point out, because I sit on the Financial Services 
Committee, that in virtually every State under these 
circumstances the insurance company doesn't benefit. When they 
lose contact with the insured and the insured has reached a 
certain age, the money is paid to the unclaimed property fund 
of the State and is advertised. So why should Holocaust 
victims, why should victims of the Armenian genocide, why 
should the Roma victims of the Nazis not get this same benefit 
of a list?
    Now, the response I have gotten from the insurance 
companies is they want to protect the insured, the 100-year-
old, the 150-year-old. They have to hold onto the money 
secretly in order to protect the consumer, confidentiality of 
the consumer.
    Well, any secrets that I have about my insurance policies I 
give to the world when I hit age 150.
    The fact that companies would continue to hold the money 
knowing that the insured have probably died over 50 or 60 years 
ago, whether as a victim of murder or simply of the expiration 
of life, to hold on to that money raises the question is this 
the kind of company that American consumers should be allowed 
to do business with.
    My God, you pay into an insurance company for decades in 
the expectation that when you and your family need the money 
they are going to pay. And if they are still holding the money 
from 150-year-old Holocaust victims, are these companies that 
act in good faith? Are they acting in good faith when they sell 
policies in California or just in bad faith when they sell 
policies in Poland?
    And I am going to continue our efforts to say put the names 
on the Web or you are not the kind of company that Americans 
should do business with. This is not just a matter of justice 
for those who died in Europe and their families. This is a 
matter of protecting Americans from companies who would say, 
well, yeah, we haven't talked to that person in 60 years. Yes, 
I guess they are 160 years old. But we are going to hold on to 
the money. They might be alive somewhere.
    I do have one question for Mrs. Firestone. I have many 
questions, but I have time for one.
    During the Senate hearing on this issue in 2008, Mr. Rubin, 
who is a survivor, observed that ICHEIC did not follow its own 
relaxed standards of evidence. I notice the State Department 
yesterday agreed to support claims submitted to insurance 
companies that use an ICHEIC-like process. What should this 
standard look like and is there anything Congress should do to 
enforce this standard with the companies?
    And I realize there may be other witnesses with a response. 
It is kind of a technical question.
    Ms. Firestone. I don't know much about the insurance 
business, but all we survivors are asking is for that list that 
you are talking about. And I just want to tell you, Mr. 
Sherman, that we in California are very grateful to you for 
many issues that you stood by us, and I just can't tell you how 
grateful we are.
    Mr. Sherman. Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you. And I regret that we have 
run out of time. Thank you for your support, Mr. Sherman.
    Thank you to the three of you and Mr. Shearer. Thank you 
for being here today to prove that there are American victims 
of this injustice as well. We will continue to fight for you 
and in your name. Thank you so much.
    The committee is now adjourned. Thank you.
    [Whereupon, at 12 o'clock p.m., the committee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                  <F-dash>\<Register><pound>s<ellipse>
          \<box><star>t<careof><Rx><box><Rx><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
                      Committee on Foreign Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <F-dash>\<diamond><box><natural><acctof>a<Rx><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

Material submitted for the record by the Honorable Howard L. Berman, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Berman 2 deg.____

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

<F-dash>\<diamond><brit-pound><box><natural><loz><script-l><box><ellipse>
                 <ellipse><F-dash><func.-of><Register>\

Material submitted for the record by the Honorable Ann Marie Buerkle, a 
         Representative in Congress from the State of New York

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Buerkle 2 deg.____

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

   <F-dash>\\a<script-l><pound><Rx><box><variable><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

 Material submitted for the record by the Honorable Carolyn Maloney, a 
         Representative in Congress from the State of New York

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<diamond><natural><box>t<star><pound><script-l><check><ellipse>
                 <ellipse><F-dash><func.-of><Register>\

   Material submitted for the record by Mr. Leo Bretholz, Holocaust 
                Survivor, Author, ``Leap into Darkness''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<F-dash><careof><natural><box>st<pound><Rx><box> - 
  <Hoarfrost><star><star>a<box><star>t<box><natural><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

  Material submitted for the record by Ms. Renee Firestone, Holocaust 
   Survivor, and Mr. David Schaecter, Holocaust Survivor, President, 
                     Holocaust Survivors Foundation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: Additional information may be accessed on the World Wide Web at 
http://www.hsf-usa.org (accessed 1/19/12).]

   <F-dash>\<F-dash><careof><natural><box>st<pound><Rx><box><ellipse>
                 <ellipse><F-dash><func.-of><Register>\

  Material submitted for the record by Ms. Renee Firestone, Holocaust 
                                Survivor

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Firestone 2 deg.____

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Firestone 3 deg.____

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                <F-dash>

[Note:  Material submitted for the record by the Dutch, French and 
German Embassies is not reprinted here but is available in committee 
records.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
